   CALIFORNIA STATE UNIVERSITY
NEEDS TO CONTINUE ITS IMPROVEMENTS
     IN MANAGING COST SHARING


        National Science Foundation
       Office of the Inspector General


              March 31, 2004
              OIG 04–1–005
                            FOR OFFICIAL USE ONLY

                         REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE NATIONAL SCIENCE
FOUNDATION WITHOUT ADVANCE APPROVAL BY THE NSF OFFICE OF INSPECTOR GENERAL.
THE ONLY EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING OR ADMINISTERING NSF
AWARDS. THE INFORMATION IN THIS REPORT SHOULD BE TREATED AS CONFIDENTIAL AND
MAY NOT BE USED FOR PURPOSES OTHER THAN ORIGINALLY INTENDED WITHOUT PRIOR
CONCURRENCE FROM THE NSF OFFICE OF INSPECTOR GENERAL.
                                   TABLE OF CONTENTS

                                                                                  Page


Executive Summary                                                                  ii

Introduction                                                                       1

Objectives, Scope, and Methodology                                                 3

Part I:        Review of 11 Audits With Cost-Sharing Findings                      4

Part II:       Steps Taken By CSU to Improve Grants Management                     8


APPENDIX A: List of Audit Reports Included in this Summary                         13
APPENDIX B: CSU’s Response to Audit Report                                         14




                                         ACRONYMS

AOA            Auxiliary Organizations Association
AOR            Authorized Organizational Representative
CSUDHF         California State University Dominguez Hills Foundation
CSUFF          California State University Fullerton Foundation
CSULBF         California State University Long Beach Foundation
NSF            National Science Foundation
OIG            National Science Foundation Office of the Inspector General
OMB            U.S. Office of Management and Budget
PI             Principal Investigator
SDSUF          San Diego State University Foundation
SJSUF          San Jose State University Foundation
UAS            California State Los Angeles-University Auxiliary Services, Inc.




                                            i
Executive Summary
California State University (CSU), California’s largest university system, annually receives more
than $30 million in Federal grants from NSF. Many of these grants require the University to
share the costs of the funded project. Specifically, for the period FY 1994-2003 NSF required
CSU to provide $85 million of cost sharing on 354, or 38 percent, of 937 awards from NSF. On
the total awards NSF funded $280 million.

Most of CSU’s 23 campuses have established independent foundations to manage the
administrative requirements of their Federal grants. As such, these auxiliary organizations must
have in place accounting systems and controls to accurately track, value, and report on the status
of their campuses’ cost-sharing commitments. These organizations must ensure that the cost
sharing provided is for allowable costs, as defined by Federal requirements, and that they
monitor the cost sharing provided by subrecipients.

However, 11 audits covering nine campuses over a nine-year period found that the foundations
did not effectively manage their NSF cost-sharing grants. The audits found many common
problems, suggesting a fundamental University-wide weakness in CSU’s controls to oversee and
manage its cost-sharing commitments. Specifically, the audits found a lack of written policies
and procedures for cost sharing, inadequate systems to track cost sharing or maintain supporting
documentation, overstatement of in-kind cost sharing, inadequate monitoring of cost sharing,
including monitoring of subrecipient cost sharing, and a lack of certification of cost sharing.

As a result, CSU could not support $32 million of the $51 million of cost sharing claimed.
Although CSU subsequently decided not to claim $30 million of that amount and later provided
support for the remaining $2 million, the overall lack of support for substantial amounts of cost
sharing indicates systemic weaknesses in grants management at CSU and the potential for future
cost-sharing shortfalls.

CSU took several steps, including revising and significantly expanding the Chancellor’s directive
on cost sharing in January 2004, and convening a task force, which in November 2002, issued a
report assessing CSU’s grant and contract administration. In addition, beginning in January
2001 the University Auditor conducted 11 grant and contract audits, including one of the
University system as a whole. Although these steps have improved CSU’s management of cost
sharing, the University still needs to establish at the University level a management structure to
provide overall direction, guidance, and oversight of CSU’s grant administration operations,
including cost sharing.

Accordingly, we recommend that the University provide more detailed guidance on cost sharing to
the campuses and foundations; establish responsibilities for a system-wide structure and framework
to direct and oversee sponsored research and cost sharing at the campuses and foundations; enable
the University Auditor to assess the foundations’ compliance with Federal requirements for
administering awards, including cost sharing, on a regular basis; and ensure that campuses with large
amounts of Federal awards provide for routine audits of internal controls over award administration.

                                             ii
        CSU generally agreed with the recommendations; however, it disagreed that it should
establish responsibilities for system-wide management of Federal awards because it did not believe
that the audit findings warranted such a major reorganization and thought that centralized
management would be both duplicative and unnecessary, since ultimate responsibility for award
administration rested at the campus level. Although we agree that a major reorganization is not
necessary and system-wide management should not duplicate administration at the campus level, the
pattern of weaknesses in CSU’s decentralized structure for managing and accounting for its cost
sharing and ensuring compliance with Federal requirements indicates a need for more centralized
direction and leadership.

        Managing Federal grants requires the development of system-wide controls, including
policies and procedures for sponsored research, the collection of information from campuses and
foundations about their sponsored research procedures, dissemination of information about best
practices to the campuses, and processes to monitor activities to ensure that Federal requirements
and award terms and conditions, including cost-sharing obligations, are met. Since CSU agreed to
our recommendation to have the University Auditor increase the number of grant audits, we suggest
that CSU work with the University Auditor to decide on the necessary system-wide controls to
ensure adequate oversight. Thus, we reiterate our recommendation for system-wide management of
Federal awards.




                                            iii
Introduction

Background

        OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, defines
cost sharing as an awardee’s contributions to a Federally funded program. NSF sometimes
requires cost sharing when an award will generate program income, such as revenues from
training materials developed under a project, or when the award creates a tangible benefit, such
as infrastructure that will endure after an award has expired. Cost sharing includes cash and in-
kind contributions that are verifiable from recipient’s records, not included as contributions for
any other Federally-assisted program, necessary and reasonable to the accomplishment of
program objectives, allowable under applicable cost principles, and not paid by the Federal
government under another award, except where authorized by Federal statute. During the ten-
year period from FY 1994-2003, NSF required California State University (CSU) to provide
$85 million of cost sharing on 354 (38 percent) of 937 awards for which NSF provided
$280 million.

The California State University System

         The California State University system consists of campuses in 23 locations throughout
the state. Formally created in 1960 by the California Master Plan for Higher Education, CSU is
the middle tier between the nine campuses in the University of California system and 108
campuses of the California Community College system. CSU’s primary mission is to provide
undergraduate education to state residents; however, it has received increasing amounts of funds
for sponsored research over the years. For example, in FY 2002 CSU had revenues of
$5.3 billion, $984 million of which came from grants and contracts. Of grant and contract funds,
$650 million or 66 percent came from Federal funds, of which approximately half was for
financial aid. Of Federal funds, $36 million or about 6 percent came from NSF. However, over
the last ten years NSF funding to CSU campuses has increased 22 percent from $24.8 million in
1994 to $30.4 million in 2003.

        At the time CSU was established, it was constrained by state law from receiving grant
and contract funding directly and it used separate auxiliaries to receive and administer such
funds. Auxiliaries1 are also authorized to perform a variety of other functions, including
management of campus bookstores, real and personal property, alumni relations, gifts and
bequests, campus services, and student body organization programs. Each campus enters into a
written agreement with CSU’s Chancellor specifying exactly what functions its foundation(s)
will perform. Although the state restrictions have been relaxed over time, many campuses still
administer grants and contracts through their affiliated foundations. The most common model is
to conduct pre-award management activities at the individual university campuses and have the
foundations perform the post-award management functions.
1
 Auxiliaries are separate corporations under section 501© (3) of the tax code. Many are CSU foundations, but
some are student organizations. For the purposes of this report, we are using the word foundations to refer to the
auxiliaries for which one function is sponsored research administration.


                                                          1
        The CSU Board of Trustees has overall responsibility for administering the university
system. However, the Board has delegated certain authority to the Chancellor and specific
authority to the college presidents. The Chancellor has further delegated certain functions to
CSU’s Chief Financial Officer. At the campus level the presidents are responsible for making
sure that the foundations “operate in conformity with the policy of the Board of Trustees and the
campus.”2 Thus, for grant and contract administration, the campus presidents are responsible for
ensuring that their foundations comply with all State, Board, Chancellor, and campus
requirements. The most important directive from the Chancellor concerning grant and contract
administration was Executive Order 168, The California State University and Colleges Auxiliary
Organizations-Administration of Grants and Contracts in Support of Research, Workshops,
Institutes, and Other Special Instructional Projects, promulgated in 1973. On January 7, 2004
the Chancellor released a replacement, Executive Order 890, Administration of Grants and
Contracts in Support of Sponsored Programs, which significantly expanded the guidance on
sponsored research.

        To oversee grants management at the campuses and associated foundations, CSU relies
primarily on audits, including the annual OMB Circular A-1333 audits conducted both at the
University level and at each foundation, occasional issue-specific internal audits by campus
auditors, and audits by the University Auditor. Every three years the University Auditor audits
each auxiliary organization, although these audits generally do not include grants and contracts
in the scope of work. However, in January 2001, as a result of some of the NSF OIG audits on
cost sharing, the CSU Board of Trustees’ Audit Committee directed the University Auditor to
conduct 11 grant and contract audits, including one system-wide audit and the others at selected
campuses and/or foundations.4




2
   Title 5 California Code of Regulations, Section 42402, “Authority of Campus President.”
3
  The title of OMB Circular A-133 is: Audits of States, Local Governments, and Non-Profit Organizations.
4
  In addition to the systemwide audit, the University Auditor conducted audits at the following campuses and/or
foundations: Sacramento, California Polytechnic State University, Fullerton, San Diego, Humboldt, San Jose,
Northridge, Bakersfield, San Francisco, and Los Angeles.


                                                         2
Objectives, Scope, and Methodology

        The objectives of this summary report are to:

    •   Summarize the cost-sharing problems found in 11 audits within the CSU system, which
        include five cost-sharing audits conducted by an NSF OIG contractor and six other audits
        with cost-sharing findings conducted by OIG, contractors, or A-133 auditors,5
    •   Evaluate CSU’s organizational structures and policies and procedures for managing and
        overseeing cost-sharing activities University-wide.

        To address the first objective, we reviewed 11 audits performed over the past four years
at CSU campus foundations and summarized the major findings. To address the second
objective, we reviewed Executive Order 168 and its replacement, Executive Order 890, which is
the Chancellor’s primary directive to the campuses and foundations about award administration;
the Chancellor’s task force report on the organization of grants management at the campuses and
foundations; and 11 audit reports of grants management performed by the University Auditor,
ten at campuses and foundations and one system-wide.6 In addition, we conducted telephone
interviews and exchanged e-mails with officials at the campuses and foundations and with staff
in the Chancellor’s Office and the Office of the University Auditor to determine whether the
actions CSU has taken since the OIG completed its cost-sharing audit are sufficient to ensure that
the University has adequate controls at all recipient campuses and foundations to manage NSF
awards, including required cost-sharing contributions, in compliance with Federal and NSF
requirements.

       We conducted our audit in accordance with the Comptroller General’s Government
Auditing Standards.




5
  The 11 audits conducted by NSF OIG, contractors, or OMB Circular A-133 auditors included in this report are
listed in Appendix A.
6
  For the list of the University Auditor’s grant and contracts audits, see footnote 4, above.


                                                        3
PART I:        Review of 11 Audits With Cost-Sharing Findings

Internal Controls Need Improvement

         Our review of the 11 audits at nine campuses conducted by NSF OIG, contractors, and
A-133 auditors identified a pattern of weaknesses in CSU’s controls in managing and accounting
for its cost sharing and of non-compliance with Federal and NSF requirements. Specifically, we
found that:

   •   Three campuses lacked adequate policies and procedures for cost sharing, two of which
       had no written policies and procedures for cost sharing at all.
   •   Four campuses either did not track their cost sharing or did not maintain supporting
       documentation.
   •   Two campuses significantly overstated in-kind cost sharing.
   •   Six campuses did not adequately monitor cost sharing, including sub-recipient cost
       sharing.
   •   Seven campuses had certification deficiencies for cost sharing.

As a result of these internal control weaknesses, five CSU campus foundations could not support
more than half or the $51 million of cost sharing they claimed on the audited awards.

Lack of Policies and Procedures

         Two foundations, one at Los Angeles and the other at Fullerton, had no policies and
procedures for cost sharing, and another, at San Marcos, had inadequate policies and procedures.
Specifically, three audit reports, issued between 1998 and 2002, found that California State Los
Angeles Auxiliary Services, Inc. (UAS) had no policies and procedures for cost sharing.
Similarly two audit reports and a management letter issued in 1998 found that CSU Fullerton
Foundation (CSUFF) had no policies and procedures for cost sharing. A 1999 management
letter stated that CSUFF had written cost sharing policies but had not fully implemented them.
A September 2001 NSF OIG audit report found that CSU San Marcos Foundation's cost-sharing
policies and procedures were incomplete because they did not include written instructions for
documenting or certifying cost sharing.

Inadequate Grants Accounting Systems

       Four audits found inadequate internal controls over accounting for cost sharing on NSF
awards. CSU Long Beach Foundation could not provide documentation for $2.2 million of
services, equipment, and donated software claimed as in-kind cost sharing. In addition, during
our audit UAS had to reconstruct six years of cost-sharing data to support $1.7 million or 74
percent of the $2.3 million it claimed as cost sharing because it did not track or document cost
sharing. Further, UAS was not able to satisfactorily support the remaining $.6 million of cost
sharing that it claimed.




                                                4
        San Diego State University Foundation (SDSUF) also had inadequate cost accounting
controls to track cost sharing on NSF awards. The foundation did not provide after-the-fact labor
activity reports to support faculty release time claimed as cost sharing on 10 of 28 NSF awards
audited, even though the amount of salary and wages associated with faculty release time
represented 32 percent of the total $1.3 million cost sharing claimed under the audited awards.
For example, on one award, SDSUF claimed faculty release time for fall and spring 1994
through 1996 and part of spring 1997, but the PI or faculty members did not confirm the time
until November 2000.

        The CSU Office of the Chancellor, with $2.5 million of required cost sharing, also could
not document $131,915 of faculty release time claimed by a subawardee for the period July 1998
through June 2000 because the subrecipient did not calculate it until July 2001. Altogether,
auditors were unable to substantiate more than $1 million of claimed cost sharing for faculty
release time at one campus and two foundations having a combined cost-sharing obligation of
about $12 million.

Inaccurate Valuation of In-Kind Cost Sharing

        Two audits found significant inaccurate valuations of in-kind cost sharing. CSU Long
Beach Foundation overstated its cost-sharing contribution for donated software by $26 million
because it claimed the full commercial price when OMB Circular A-21 requires that donated
property be valued net of educational discounts. At CSUFF, auditors questioned $93,099 of
$111,658 claimed cost sharing for donated software because the auditors were unable to verify
the software valuation.

Inadequate Monitoring of Cost Sharing

        Contrary to Federal and NSF requirements, three campuses or foundations did not
adequately monitor claimed cost sharing and three others did not adequately monitor cost sharing
claimed by their subrecipients. Both UAS and CSU San Marcos Foundation inappropriately
delegated responsibility for monitoring cost sharing to their Principal Investigators (PIs), instead
of requiring their grant administrators to track cost sharing. PIs are not trained to monitor cost
sharing and are not independent. San Jose State University Foundation was aware of cost-
sharing shortfalls on four of its 32 NSF awards, but did not notify NSF of its inability to provide
the cost sharing before the awards expired or request a required no-cost extension because it
erroneously believed that it could fund cost sharing after the awards’ expiration dates.

        Three campuses or foundations did not adequately monitor cost-sharing obligations
provided by their subrecipients through site visits or other means, as required by Federal rules.7
San Francisco State University Foundation did not scrutinize its subrecipients’ cost sharing; and
$3 million of $7 million cost sharing claimed was unacceptable, because it used Federal funds or
had no documentation. In addition, although the auditors did not question any costs as a result,

7
 OMB Circular A-133, Compliance Supplement, part 3, section M., states that during the award, the pass-through
entity should monitor the subrecipient’s use of Federal funds through site visits or other means that provide
“reasonable assurance that the subrecipient administers Federal awards in compliance with laws, regulations, and the
provision of contracts or grants agreements. . . .”


                                                         5
they noted that CSU Dominguez Hills Foundation, Inc. did not obtain an audit report for UAS, or
two management letters and an audit report for CSUFF. The letters and audit reports would have
notified CSUDHF that these subrecipients did not have written policies and procedures for cost
sharing, and that it should therefore monitor their claimed cost sharing closely. CSU’s Office of
the Chancellor was cited for not knowing, even two months after the award had expired, that its
three subrecipient universities had cost-sharing requirements totaling $1.5 million. Further, the
Office did not have a process that required subrecipient campuses to track their cost-sharing
contributions and periodically submit documentation supporting claimed cost sharing for
approval.

Certification Deficiencies

        NSF policies require that an award recipient with a cost-sharing obligation of $500,000 or
more certify to NSF annually and at the end of the project the amount of cost sharing incurred.
The amounts must be certified by a recipient’s Authorized Organizational Representative (AOR),
a designated official with legal authority to bind the organization and with sufficient knowledge
and independence to ensure the integrity of the cost-sharing system. Seven CSU foundations did
not certify cost sharing, certified inaccurate cost-sharing amounts, or did not have an AOR
certify the cost sharing.

        Three campus foundations did not certify cost sharing annually. A May 1998 audit report
stated that San Francisco State University Foundation had not reported any cost sharing since
August 23, 1996, even though one of the amendments to the grant specifically required
documentation of cost sharing on an annual and cumulative basis. A September 2001 audit
report stated that the Office of the Chancellor failed to provide annual certifications for 1998 and
1999 and a final cost-sharing certification because it was unaware of the reporting requirement.
Auditors found that San Jose State University Foundation did not submit annual certifications for
two awards. For one award, the PI simply stated in the annual progress report that the cost-
sharing commitment “was fulfilled and documented”, but the auditors found that the reports for
1997 through 2000 did not reflect the specific dollar amount of cost sharing that had been
provided.

        Audits of two other CSU foundations found that although they filed the required cost-
sharing certifications, the amounts were incorrect. At CSUFF the cost-sharing amounts stated in
the annual reports differed from those in the final report. At UAS, the auxiliary claimed at the
time of the audit an additional $239,873 of cost sharing that had never been certified.

       In addition, at four foundations the AOR did not sign cost-sharing certifications. At CSU
Long Beach Foundation and CSUFF annual cost sharing certifications were signed by the PIs,
who do not have institutional authority or independence. Similarly, at SDSUF a grant
administrator and the PI performed the annual certification; and at San Jose State University
Foundation the PI signed certifications on an award from 1997 through 1999 because the
foundation was unaware that certification by an AOR was required.




                                                 6
Consequences of Inadequate Internal Controls

         As a result of these grants management weaknesses, five CSU campuses and foundations
could not support $32 million of the $51 million claimed cost sharing we reviewed. Subsequent
to the audits, the campuses and foundations discontinued their claims for $30 million8 of the total
unsupported amount or found support for the remaining $2 million of claimed cost sharing.
However, the failure to provide acceptable documentation for 63 percent of cost sharing claimed
at the time of the audits indicates a fundamental lack of understanding of applicable Federal
requirements that could result in substantial future cost-sharing shortfalls. Unmet cost sharing
can limit project scope and compromise research objectives. In addition, to the extent that NSF
has to pay a larger portion of project costs than expected, it forgoes opportunities to fund other
research projects. From an awardee’s perspective the inability to meet required cost sharing
could ultimately jeopardize future Federal funding.

       In addition to unsupported cost sharing, six campuses and foundations did not meet their
cost-sharing commitments before their awards expired, resulting in another $.5 million of
questioned costs. NSF management has the authority to negotiate settlement of a lesser amount
of questioned costs based on factors beyond the scope of applicable Federal administrative
requirements and cost principles. For example, during audit resolution, NSF management can
consider satisfactory completion of project goals or grantee willingness to take corrective action.
Based on these kinds of criteria, NSF sustained $179,320 or 34 percent of the $.5 million of costs
questioned in the audit reports.




8
 The foundation that opted not to continue to claim $30 million of cost sharing was CSU Long Beach Foundation
(CSULBF), which claimed $32 million more cost sharing on three awards than required. However, of the $8 million
of acceptable cost sharing, CSULBF still had a cost-sharing shortfall of $.5 million on one award.


                                                      7
PART II:         Steps Taken by CSU to Improve Grants Management

Need For Central Management

        The common problems these many CSU campuses experienced with cost sharing suggest
a need for more centralized direction and oversight. Specifically, effective management of
Federal awards at a decentralized university like CSU requires a vision of the role of sponsored
research within the system, leadership to implement that vision system-wide, and processes to
assess and manage the programmatic, compliance, and financial risks involved in accepting
Federal funding. Managing Federal grants also requires the development of system-wide
controls to mitigate those risks, including policies and procedures for sponsored research, the
collection of information from campuses and foundations about their sponsored research
procedures, dissemination of information about best practices to the campuses, and processes to
monitor activities to ensure that Federal requirements and award terms and conditions, including
cost-sharing obligations, are met.

        However, the pervasive nature of the audit results shows that CSU needs to strengthen
these elements of award management. While CSU has taken a number of actions to address the
problems reflected in these audits, we believe more should be done to provide overall leadership
and management structure, including the development of a vision for grants management in the
University system, processes to implement it, assessment and management of the risks inherent
in accepting Federal funds, and oversight of sponsored research management system-wide.
Specifically, CSU needs to provide more guidance about cost sharing to its campuses and
foundations; establish responsibilities to identify, manage, and control the risks of sponsored
research at the campuses and foundations, enable the University Auditor to regularly assess the
foundations’ internal controls over sponsored research and their compliance with Federal
requirements for administering awards, including cost sharing; and ensure that campus internal
auditors periodically test internal controls over award administration.

CSU Needs to Provide More Guidance on Cost Sharing

        To manage its grants effectively, the Chancellor’s Office must provide more specific
guidance and direction on cost sharing to the campuses. The University manifested leadership
over the administration of its grants and contracts primarily through Executive Order 168, the
Chancellor’s directive on award administration issued to the campus presidents in 1973.
However, the Order provided limited guidance. With respect to cost sharing Executive Order
168 stated only that cost sharing “should reflect an accurate and acceptable contribution by the
campus.”9 It provided no guidance on accounting for cost sharing or defining what is acceptable
cost sharing.

       In January 2004 the Chancellor’s Office replaced Executive Order 168 with Executive
Order 890, Administration of Grants and Contracts in Support of Sponsored Programs. While
an improvement, Executive Order 890 only requires that campuses and foundations document
9
 Executive Order 168, January 19, 1973, Section 1 d. The section also stated that if a project required direct
contribution of State funds or a diversion of funds from their budgeted purposes, campuses had to obtain prior
approval from the Chancellor’s Office.


                                                         8
actual cost sharing “consistent with” campus cost allocation plans, sponsor requirements, and
OBM Circular A-110, where applicable.10 Although the reference to OMB Circular A-110
appropriately directs grants administrators to Federal requirements for cost sharing, Executive
Order 890 does not provide explicit guidance about CSU’s expectations for how its campuses
will at a minimum account for and administer their cost-sharing commitments. Specifically, the
guidance does not discuss:

       Federal requirements for awardees to have financial management systems to track cost
       sharing on each specific award and to ensure that claimed cost sharing is not included as
       contributions for any other Federally assisted program or paid by the Federal Government
       under another award,
       Applicable portions of OMB Circular A-21 requiring recipients of Federal funds to have a
       time keeping system to ensure that effort claimed as cost sharing on an award is tied to that
       award only and is certified by someone with first-hand knowledge in a timely manner,
       How to value in-kind cost sharing such as donated software,
       How to document and monitor cost sharing including subrecipient cost sharing and how to
       report and certify cost sharing.

        CSU has not provided detailed guidance on cost sharing because it believes that it only
needs to reference the applicable Federal requirements in its directives on sponsored research
and that the campuses and foundations will follow that to draft their own specific policies and
procedures accordingly. However, audit results show that campuses and foundations have not
always developed policies and procedures, or ensured their adequacy. The unavailability of
detailed direction from the Chancellor’s Office increases the risk that campuses and foundations
will have inadequate and inconsistent policies and procedures and, as a result, may not meet their
cost-sharing obligations. Although the legal and financial risk of failing to provide required cost
sharing exists at the campus and foundation level, cost-sharing shortfalls at CSU campuses could
eventually jeopardize Federal funding system-wide.

CSU Needs to Develop A System-Wide Control Framework for Award Administration

       Effective grants management requires organizational structures and processes to oversee
the administration of sponsored research at the campuses and foundations. Although Executive
Order 890 and additional guidance from the Chancellor's office can help, they will not fully
compensate for the limited oversight and internal processes within the Chancellor’s Office to
manage campus-wide compliance with Federal sponsored research requirements.

       Executive Order 890 does not address CSU system-wide management of sponsored
research and cost sharing. It states that the three offices of Academic Affairs, Business and
Finance, and Human Resources within the Office of the Chancellor share responsibility for
keeping the new Executive Order current. Otherwise, it places responsibility for management of
sponsored research at the individual campus level. However, we believe that oversight of
sponsored research and cost sharing at the campuses and foundations requires the establishment
of responsibilities within the University organizational structure in order to undertake more
comprehensive management functions, such as:
10
     Executive Order 890, Administration of Grants and Contracts in Support of Sponsored Programs, Section 3.5.5.


                                                          9
   •   setting strategic, operational, reporting, and compliance objectives for sponsored research
       within CSU,
   •   establishing the management direction and policies for effectively carrying out a campus-
       wide sponsored research program,
   •   identifying, assessing, and responding to the risk of campus-wide administration of
       Federal funds,
   •   engaging in preventative and detective control activities, such as reviewing campuses
       policies and procedures for cost sharing to ensure compliance with Federal requirements,
   •   ensuring the Chancellor has adequate information from the campuses and foundations
       about sponsored research issues and that they communicate effectively with both the
       Chancellor’s Office and each other to address these issues, and
   •   monitoring campus-wide compliance with Federal and agency grant provisions.

        One way to provide this centralized direction and oversight would be to establish a
University-level staff, dedicated to sponsored research, which could provide an overall control
environment for administering Federal grants and contracts at CSU. This staff could focus on
assessing risk associated with sponsored research; implementing control activities, such as
reviewing the adequacy of campuses policies and procedures for ensuring compliance with
Federal and agency requirements to help mitigate and manage those risks; collecting and
disseminating best-practices information about sponsored research and cost sharing between the
Chancellor’s Office and the campuses and foundations; and monitoring sponsored research
administration at the campuses and foundations.

         The foundations currently do communicate through the Auxiliary Organizations
Association (AOA), a system-wide consortium of auxiliaries. In particular, sponsored research
directors at 21 CSU campus foundations belong to the AOA Research Committee, which
exchanges information about grants management. However, the AOA has no formal authority
within the CSU system and cannot provide the vision, guidance, management, and oversight of
grants administration necessary to ensure compliance with Federal requirements at all member
foundations. Thus, we believe that CSU as a system needs to develop a management framework
for overseeing grants administration at all campuses and establish specific responsibilities within
the University to assess, monitor, and control the risk of sponsored research and cost sharing at
the campuses and foundations. Investing in an organizational infrastructure at the University
level to set overall policy and oversee the administration of Federal sponsored research activities
at the individual campuses and foundations could help prevent the problems CSU campuses and
foundations have had in the past and ensure that the approximately $650 million of annual
funding CSU receives in Federal funding is not jeopardized.

CSU Needs to Continue Grants and Contracts Audits

       Effective oversight of sponsored research requires that CSU and the independent
University Auditor expand their roles in monitoring grants and contracts administration at the
campuses and foundations. Currently CSU primarily relies on OMB Circular A-133 audits of
the University and of the individual auxiliary foundations, supplemented by internal audits at



                                                10
individual campuses and foundations and audits by the University Auditor to oversee sponsored
research.

        However, past A-133 audits often have not reviewed NSF awards because they were
below the dollar threshold for testing or not included in the Research and Development clusters.
CSU also cannot rely on internal audits to monitor sponsored research at the campuses because
not all campuses have internal auditors; and for those that do, the auditors only perform ad hoc
reviews of grants management as specific problems arise. They do not routinely review grant
administration programs or assess the overall adequacy of the programs’ internal controls and
processes.

        Nor has CSU historically been able to rely on the University Auditor for audits of grants
and contracts because those audits generally do not include the sponsored research operations.
Only in response to our audits did the University Auditor undertake reviews of grant and contract
activities at selected campuses and foundations in January 2001. However, given the nature of
the University Auditor’s findings on these audits, CSU should continue to have regular audits of
its campuses’ sponsored research programs. In its system-wide audit, the University auditor
noted many of the same internal control weaknesses reported in our audits:

   •   Seven campuses did not have complete or finalized written policies and procedures for
       faculty release time, tracking academic overload, cost sharing and in-kind commitments,
       maintenance of financial reports, and/or subrecipient monitoring,
   •   Five campuses did not adequately approve and support project expenditures,
   •   Eight campuses did not have documentation indicating that interim and/or final reports
       were submitted to grantors, and
   •   Five campuses did not require PIs to submit cost-sharing records and source
       documentation.

       We did find that the University Auditor’s findings were being appropriately monitored
and acted on by the individual campuses, and therefore that the audits can be an effective control
to ensure that the campuses and foundations comply with NSF and Federal grant requirements.

Recommendations

   We recommend:

   1. The Chancellor ensure that CSU prepares detailed guidance for the campuses and
      foundations to use as a model in drafting or revising their own policies and procedures on
      cost sharing;

   2. The Chancellor establish responsibilities within CSU’s organizational structure for a
      system-wide management control framework to oversee and mitigate the financial risks
      of Federally sponsored research grants, including cost sharing, at the campuses and
      foundations;




                                                11
   3. The CSU Board of Trustees provide for regular assessment by the University Auditor of
      campuses’ and foundations’ compliance with Federally sponsored research and cost-
      sharing requirements; and

   4. The Chancellor ensure that campuses with large amounts of Federally funded grants
      conduct routine audits of the internal controls over sponsored research, including cost
      sharing.

Auditee’s Response

        CSU agreed with all the recommendations except the recommendation for system-wide
management of Federal awards. It said that there was insufficient evidence that the problems
identified in the audit reports included in the summary were current and substantive enough to
warrant the costs of the recommended reorganization. In addition, CSU thought centralized
management would duplicate efforts at the campus level and was unnecessary, since the
responsibility for identifying, assessing, and responding to the risks of administering Federal
funds rested primarily at the campuses. (CSU’s entire response is included as Appendix B.)

Auditor’s Comments to Auditee’s Response

        CSU has taken a number of actions to address the problems reflected in this report.
However, we believe that CSU needs to do more to provide overall leadership and management
structure. The pattern of weaknesses in CSU’s decentralized structure for managing and
accounting for cost sharing and ensuring compliance with Federal requirements shows that CSU
needs to exercise more centralized direction over sponsored research at the campuses. The
University Auditor, in its 2002 risk assessment, underscored our concern when it ranked grants
and contracts third on its list of CSU’s overall financial risks.

        Managing Federal grants requires the development of system-wide controls, including
policies and procedures for sponsored research, the collection of information from campuses and
foundations about their sponsored research procedures, dissemination of information about best
practices to the campuses, and processes to monitor activities to ensure that Federal requirements
and award terms and conditions, including cost-sharing obligations are met. Since CSU agreed
to our recommendation to have the University Auditor increase the number of grant audits, we
suggest that the University Auditor use the results of these audits to assist CSU in determining
the necessary system-wide controls to ensure adequate oversight. Thus, we reiterate our
recommendation for system-wide management of Federal awards.
.




                                               12
                                                                      Appendix A


                                                     List of Audit Reports Included in this Summary


Report           Campus/                                             Audit             Auditor                   Report                Period
Number1          Foundation                                          Type2                                       Date                  Covered


98-1030          San Francisco State University Found.                  1              Conrad                    05/06/98         09/01/92-12/31/97
99-6001          CSU Fullerton Foundation                               3              NSF OIG                   10/16/98         02/15/94-01/31/97
00-1005          CSU Dominguez Hills Foundation                         1              Conrad                    01/20/00         07/01/95-09/30/99
00-5032          CS Los Angeles-Univ. Auxiliary Services                2              Grant Thornton            06/30/98         07/01/97-06/30/98
XX-XXX           CS Los Angeles-Univ. Auxiliary Services                2              Grant Thornton            06/30/99         07/01/98-06/30/99
00-1015          CSU Long Beach Foundation                              1              NSF OIG                   09/29/00         04/01/94-08/31/99
01-1014          CSU San Marcos Foundation                              1              Conrad                    09/17/01         08/01/97-01/22/01
01-1017          CSU Office of the Chancellor                           1              Conrad                    09/14/00         03/31/98-06/30/00
01-1018          CSU San Jose State University Found.                   1              Conrad                    09/25/01         02/01/95-01/31/00
02-1002          CSU San Diego State University Found.                  1              Conrad                    02/18/01         03/15/93-10/31/00
02-1003          CS Los Angeles-Univ. Auxiliary Services                1              Conrad                    02/12/02         04/15/94-01/12/01




Notes:
1
  Report Number refers to the NSF OIG report issue date. Report XX-XXX refers to a report NSF did not issue, but which had cost-sharing findings and was therefore
included in this summary.
2
    Audit Type                    Type of Audit
     1                        Financial and Compliance
     2                        A-133 Annual Single Audit
     3                        Survey or Special Audit




                                                                             13
XXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX


March 19, 2004

Ms. Deborah Cureton
Associate Inspector General for
Audit National Science Foundation
4201 Wilson Boulevard Arlington,
VA 22230


Subject: Draft Summary Report on Cost

Sharing Dear Ms. Cureton,

On behalf of XXXXXXXX, XXXXXXXXXX and the nine California State University (CSU) campuses involved in
the subject audit, I would like to reply to your draft summary audit report on cost sharing. First, let me express
my appreciation for your staff's cooperation in preliminarily discussing this report and its finding with the CSU. I am
confident that we have dramatically improved management of cost sharing commitments since the time of
the initial audit findings and will be able to address NSF concerns that adequate internal controls are in place.

You requested that any significant factual correction be addressed. Please note that the federal funding
amounts reported for 2002 represent all federal funds inclusive of financial aid. For the fiscal year ending June 30,
2003, CSU received $666,777,000 in non-capital grants and contracts federal funding. Approximately $359
million of that amount was funding for financial aid.

General Comments

I would like to express my concern that the draft summary presents an outdated and inaccurate picture of
management of grants and contracts in the CSU today. The summary focuses on three-year-old reports of
expenditures dating back 10 years prior. In the intervening years, considerable effort has been focused on a
systemwide basis toward improving management and fiscal administration of sponsored-program activities. This
has occurred at both a system level and individual campus level on a variety of fronts.

One of the most significant activities, as noted in the summary report, is the recent issuance of Executive Order 890
- Administration of Grants and Contracts in Sponsored Programs. This EO directs policy for both the University
and all Auxiliaries engaged in the management of sponsored programs. EO 890 requires that campus presidents
identify the responsible campus official for implementation of the policy. Each will be expected to reply to the
Chancellor by July 1, 2004, indicating compliance with the provisions of the directive.




                                                        14
While we certainly acknowledge the importance of compliance with federal and NSF cost sharing requirements, we
feel the report places its conclusions on a minority of exceptions. The summary report recognizes that only $2 million
of the $32 million in initially unsupported cost share claims remained unresolved upon conclusion of the original
audits and post audit implementation of the recommendations by CSU campuses. A full 80% ($26 million) of
unsupported claims were the result of an erroneous interpretation by a single CSU campus related to assessing
software contributions. All exceptions and audit recommendations have been rectified by the implementation of new
policies, procedures and practices. Additionally, many of the campuses indicated that they received written
confirmation by NSF that internal control and compliance issues had been adequately addressed.

The summary report is based upon a more informal, ad hoc evaluation of CSU’s current environment and actions
taken in recent years to strengthen management of NSF awards. The follow-up lacked any formal post audit sampling
or evidence to verify that the problems identified in the initial audits were substantive enough to warrant the
significant and potential costly reorganization efforts recommended.

Response to Specific Recommendation

    1.      Recommend the Chancellor ensure that CSU prepares detailed guidance for the campuses and
            foundations to use as a model in drafting or revising their own policies and procedures on cost sharing.

    CSU Response:
    We concur. The issues raised in this summary report were identified to the CSU some time ago and served as one
    of the triggers for the review and subsequent rewrite and issuance of EO 890. EO 890 specifically addresses cost
    sharing requirements in three ways: compliance with systemwide policy on cost allocation plans (Executive Order
    No. 753), sponsor requirements and OMB Circular A-l10. OMB Circular A-110 contains detailed and
    authoritative provisions on cost-sharing requirements, including valuation methods, allowability of costs, and
    documentation guidelines so it is unclear how the Chancellor’s Office can contribute more detailed or authoritative
    guidelines. The Chancellor’s Office will, however, work with the campus fiscal and research officers to develop
    best practice models and guidelines on federal cost sharing policies and will host associated training.

    2.      Recommend the Chancellor establish responsibilities within CSU’s organizational structure for a
            systemwide management control framework to oversee and mitigate the financial risks of Federally
            sponsored research grants, including cost sharing, at the campuses and foundations.

    CSU Response:
    We disagree. The Chancellor’s Office has extensively evaluated the issue of more centralized control
    framework. A specially convened Task Force on grants and contracts reviewed this issue and determined
    that each campus should continue to have the authority to determine how organizationally grant and
    contract administration should be managed. In addition, the Chancellor’s Office reviewed the feasibility
    of a centralized grant and contract office as part of EO 890 deliberations and determined that while some
    of the functions recommended under a centralized research office might be of benefit, centralized
    management direction and organizational structure would be duplicative and, ultimately, would not
    remove the campus’s responsibility for monitoring compliance with federal and agency grant provisions,
    and identifying, assessing and responding to the risk of administering Federal funds. We will, however,
    continue to assure that the current systemwide policy is maintained and up to date by periodic policy reviews and
    working closely with campus constituent groups such as the research officers to insure sponsored research
    practices, particularly related to cost sharing reporting and documentation, are administered with the highest level
    of competency and continuous improvement.



                                                          15
3.         Recommend the CSU Board of Trustees provide for regular assessments by the University Auditor of
           campuses' and foundations' compliance with Federally sponsored research and cost-sharing
           requirements.

CSU Response
We concur. Currently the CSU has the latitude to conduct audits of grants and contracts when deemed appropriate by
the Board of Trustees or when risk indicators at individual campuses warrant it.

The Chancellor will ask the Board of Trustees to consider in its identification of audit priorities, compliance with
Federally funded sponsored research requirements. These specific audits may be performed utilizing either internal
audit assignments or independent auditors. Additionally, the Chancellor's Office will direct campuses that
individual A-133 audit findings are monitored to ensure any identified weaknesses are followed up and corrective
courses of action are implemented.

4.         Recommend the Chancellor ensure that campuses with large amounts of Federally funded grants conduct
           routine audits of the internal controls over sponsored research, including cost sharing.

CSU Response
We concur. All campuses are already subject to a variety of audits of sponsored research including A-133,
auxiliary compliance audits and program-specific sponsor audits.

In addition, the Chancellor's Office will direct campuses with larger amounts of Federally funded grants to conduct
routine audits of internal controls over sponsored research, including cost sharing.

Please contact XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX if you have any
further questions.



      Sincerely,




     XXXXXXXXXXXXX



     XXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXX

     XXXXX
     cc:    XXXXXXXXXXXXXXXXXXXXXXXXXX
            XXXXXXXXXXXXXXXXXXXXXXXXXX
            XXXXXXXXXXXXXXXXXX




                                                          16
